                                          UNITED STATES DEPARTMENT OF EDUCATION 

                                               OFFICE OF INSPECTOR GENERAL 

                                                                     REGION V 

                                                             111 NORTH CANAL. SUITE 940 

                                                               CHICAGO. ILLINOIS 60606 


                                                                   FAX: (312) 353-0244
     Audit                                                                                                                                    Investigation
(312) 886-6503                                                                                                                               (312) 353-789\

                                                                                                OCT 3 1 2003
                                                                                      Control Number ED-OIG/A05-D0029



                 Ms. Patricia Dalman, Administrator
                 Sonoran Desert School
                 4448 East Main Street, Suite 7
                 Mesa, AZ 85205-7916

                 Dear Ms. Dalman:

                 This Final Audit Report presents the results of our audit of the Sonoran Desert School's
                 (School) use of U.S. Department of Education (ED) funds for the period September 1,
                 2001, through August 31,2002 (project period). The objective of our audit was to
                 determine if the School expended ED funds according to the law and applicable
                 regulations.

                 Our audit disclosed that the School did not expend Public Charter Schools Program
                 (PCSP) grant funds in accordance with the law. The School used $13,405 of the
                 $170,000 1 in PCSP funds it received for the project period for items and services that
                 were unallowable. The School also charged $24,121 to the PCSP grant for payment of
                 salaries for curriculum development but was unable to provide documentation supporting
                 the work the School's staff completed and when the work was completed.

                 In response to a draft of this report, the School did not concur with the two findings or
                 recommendations 1.1 and 2.1. However, the School concurred with recommendations
                 1.2 and 2.2.

                 For Finding No.1, the School stated that it believed that the unallowable costs identified
                 in this report were allowable because the School used these items in conjunction with the
                 School's mission to provide public education to students. For Finding No.2, the School
                 stated that it did not maintain documentation supporting its use of PCSP funds to
                 supplement teacher's salary payments because it did not receive adequate guidance on
                 how to document its use ofPCSP funds for salary payments. After evaluating the
                 School's response, we reclassified the unsupported costs to unallowable costs in Finding
                 No.2. Other than this reclassification, we found no basis for changing the findings or
                 recommendations. The School's comments are summarized in the body of the report and
                 included in their entirety as an attachment to this report.

                 1 The School charged $170,074 to the PCSP grant, $74 more than the $170,000 it had available for the
                 project period.



                       Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report	                                                                    ED-OIG/A05-D0029


                                          AUDIT RESULTS 


Finding No. 1	 The School Charged $13,405 in Unallowable Costs to the PCSP
               Grant

During our audit period, the School charged unallowable costs to the PCSP grant. We
judgmentally selected 151 expenses totaling $98,599 from the 262 expenses totaling
$170,074 charged to the PCSP grant for the project period. We reviewed written
descriptions provided by the School for these 151 expenses and determined 36 expenses
were unallowable and should not have been charged to the grant. The unallowable
charges included non-educational supplies,2 community college tuition costs for School
students, student hearing tests, field trips, cell phones, and professional dues. These are
general operational costs that should have been paid from other sources.

The Elementary and Secondary Education Act of 1965, as amended by the Improving
America’s Schools Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter
School Expansion Act of 1998,3 allows charter schools to spend funds for activities
related to post award planning and design of the educational programs and initial
implementation of the charter school. Activities related to initial implementation may
include (a) informing the community about the school, (b) acquiring necessary equipment
and educational materials and supplies, and (c) acquiring or developing curriculum
materials. Charter schools are allowed to pay for other initial operational costs not met
by other sources provided that those costs are directly related to the purpose of the PCSP
grant. The intent of the PCSP grant is to pay for necessary items and services that would
support the initial implementation and operations of the school while also allowing the
school to become financially independent.

The School did not have sufficient controls in place to provide reasonable assurance that
PCSP funds were expended on activities allowable under the law. Instead, School
officials relied on their own interpretation of the charter school law when purchasing
items and services with PCSP funds. The costs we identified as unallowable were not
included in the School’s original PCSP grant budget. Had School officials reviewed their
original PCSP grant budget or contacted an ED charter school program official before
incurring these costs, the School may not have expended PCSP funds on unallowable
items and services.

The School expended $13,405 in PCSP funds to pay for items and services for ongoing
school operations. Because School officials used PCSP grant funds to pay for general
operational costs, the School was unable to use those funds to purchase items and
services that would increase the chances of the School becoming financially independent.



2
  The non-educational supplies charged to the grant included office supplies for school administration,

sweatshirts for students, a cordless telephone system for the School, student pay phone, graduation 

ceremony supplies, and award pins. 

3
  The law was amended by the No Child Left Behind Act of 2001, Title V, Part B. 



                                                     2
Final Audit Report	                                                               ED-OIG/A05-D0029


Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the School to

1.1 	   refund $13,331 to ED4; and

1.2 	   develop and implement controls to provide reasonable assurance that ED funds
        are expended on items and services that are allowable under the law.

Auditee Comments

The School disagreed with the finding. The School’s Administrator agreed that its
officials relied on their own interpretation of the charter school law when purchasing
items and services with PCSP funds but stated that the School was in regular
communication with the grant coordinator in regard to expenditures. The School stated
that, due to the lack of specificity in the law, it had to make decisions on how to expend
PCSP funds. School officials believed that any purchases that supported the mission of
the School would be allowable. These costs included such items as filling administrative
needs for supplies, communications, student incentives, and other items it deemed critical
to the implementation of the School.

OIG Response

We reviewed the School’s comments and found no basis for changing the finding. The
School admitted that they relied on their own interpretation of the charter school law
when purchasing items with PCSP funds. In our opinion, the School official’s
interpretation of charter school law was incorrect because the items that they paid for
with PCSP funds were not directly related to the initial implementation or operations of
the School. The School’s Administrator stated that she was in regular communication
with the grant coordinator but has provided no evidence documenting that she discussed
the allowability of certain PCSP expenses with the respective grant coordinator. The
costs that we identified as unallowable were costs supporting ongoing school operations
and should not have been paid with PCSP funds.

Finding No. 2 The School Cannot Support Its Use of $24,121 in PCSP Funds

The School was unable to provide documentation supporting its use of $24,121 in PCSP
funds for payment of salaries for curriculum development. The School’s accounting
records show that it charged $25,900 to the PCSP grant for curriculum development for
the project period (the third year of the grant). The School’s payroll records only
supported $1,779.

4
 The School charged $170,074 to the PCSP grant, $74 more than the $170,000 it had available for the
project period. Therefore, we only recommend recovery of $13,331 ($13,405 in unallowable costs less
$74).


                                                   3
Final Audit Report	                                                                         ED-OIG/A05-D0029


According to 34 C.F.R. § 75.702 and 75.730(b),5 a grantee shall use fiscal control and
fund accounting procedures that insure proper disbursement of and accounting for federal
funds. Pursuant to Office of Management and Budget (OMB), Circular A-122, Cost
Principles for Non-Profit Organizations, a grantee must keep records that fully show how
it used federal funds. According to OMB Circular A-122, Attachment A, Section
A(2)(g), for a cost to be considered allowable, the specific cost must be adequately
documented. Attachment B, Paragraph 7(m)(1) and (2), states that the distribution of
salaries and wages to a federal award must be supported by personnel activity reports that
reflect the distribution of activity of each employee. These personnel activity reports
must be maintained for all staff members (professionals and nonprofessionals) whose
compensation is charged, in whole or in part, directly to the federal award.

During our audit period, the School did not have policies and procedures for the
maintenance of records showing how it used federal funds. The School did not maintain
time and effort reports or timesheets documenting the total amount of time employees
worked on PCSP grant activities. The School also did not maintain records that showed
what activities employees worked on and accomplished while being paid with PCSP
funds. Additionally, the School was unable to provide support for all of the curriculum
development work completed by employees paid with PCSP funds.

Without records to support how it used the funds, the School cannot demonstrate that it
used the $24,121 for the intended purposes of the PCSP grant.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the School to

2.1 	 refund $24,121 to ED; and

2.2 	 develop and implement policies and procedures for maintaining necessary financial
      and personnel activity records documenting how the School expended PCSP funds.

Auditee Comments

The School commented that it did not maintain time and effort reports or timesheets
documenting the total amount of time employees worked on PCSP grant activities. The
School’s Administrator commented that no guidelines were provided for specific
documentation of stipend expenditures. The School also stated that the stipends were
used to fund the development of additional curricula and to prevent overall salary
reductions.




5
    Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume.


                                                         4
Final Audit Report	                                                                 ED-OIG/A05-D0029


OIG Response

We reviewed the School’s comments and found no basis for changing the finding. The
School could not provide documentation of salary stipends paid with PCSP funds because
it failed to maintain documentation of its supplementary salary costs paid with PCSP
funds. Without sufficient documentation showing what School employees accomplished
as a result of being paid with PCSP funds, we cannot be assured that PCSP funds were
expended for allowable purposes.

                                           BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.6 Charter schools that receive a grant directly from the federal government also
must adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

The School received its charter from the Arizona State Board for Charter Schools and
opened in August 1999. The School applied for a PCSP grant and received its
authorization from ED on August 19, 1999. The grant provided the School with startup
funding for a three-year period. For the project period, the third year of funding, the
School received $170,000 in PCSP grant funds.

                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the School expended ED funds according
to the law and applicable regulations. Our audit covered the $170,000 authorization
made on September 12, 2001, and costs charged to the PCSP grant for the project period.

To accomplish our objective, we

•	         interviewed the School’s Administrator;
•	         reviewed accounting records and identified 262 expenditures totaling $170,074
           charged to the PCSP grant;
•	         judgmentally selected 147 expenses totaling $89,241. We selected large dollar
           expenses and/or those with cost descriptions that, in our opinion, were
           inconsistent with the intent of the PCSP grant. We reviewed written descriptions
           for these expenses to determine if the expenditures were allowable;
•	         judgmentally selected four PCSP expenditures totaling $9,358 and compared
           those expenses with the School’s accounting records. We compared invoices and
6
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     5
Final Audit Report	                                                      ED-OIG/A05-D0029


        cancelled checks provided by the School’s Administrator supporting these four
        expenses; and
•	      compared payroll records with the School’s accounting records to determine if all
        employee PCSP payroll expenditures were accurately recorded and supported.

We also relied, in part, on the School’s computer-processed accounting data maintained
using QuickBooks© software. We compared the School’s data with information from
ED’s Central Automated Processing System. We also compared the School’s supporting
documentation for four transactions, consisting of invoices and canceled checks, with the
School’s computerized accounting records. Based on our tests, we concluded the data
were sufficiently reliable to be used in meeting the audit’s objective.

We performed our audit work between December 2002 and July 2003. We visited the
School on December 11, 2002, and discussed the results of our audit with the School’s
Administrator on March 25, June 26, and July 17, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the School’s management control
structure applicable to all ED awards because this step was not necessary to achieve our
audit objective. Instead, we relied on testing of the School’s compliance with the PCSP
law and applicable regulations. Our testing disclosed material weaknesses in the
School’s management controls over ED awards. The School did not have (1) sufficient
controls in place to provide reasonable assurance that PCSP funds were expended on
activities allowable under the law and (2) policies and procedures for maintaining records
documenting how the School used ED funds. These weaknesses are discussed in the
AUDIT RESULTS section of this report.

                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final Departmental action on this audit.




                                             6

Final Audit Report                                                       ED-OIG/A05-D0029


                      Jack Martin, Chief Financial Officer
                      Office of the Chief Financial Officer
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4E313
                      Washington, DC 20202

                      Nina Shokraii Rees, Deputy Under Secretary
                      Office of Innovation and Improvement
                      U.S. Department of Education
                      400 Maryland Avenue, SW, Room 4 W317
                      Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom oflnformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.


                                              Sincerely,




                                              Regional Inspector General
                                              for Audit

Attachment




                                              7
Attachment

      -    - - - - - - - - - - - - - - - -,


          Mr. Richard J. Dowel
          US.~p~DtofEd~tion
          OffICe of Inspector (;enen!
          111 N. CanaJ Street, Suite 940
          Olicago,lL 6()6()(,.7204

          Date: 10/6/03
          RE: Om! Audit Report ED-erGI AOs-DOO29

          Dear Mr. Dowd:

          r am writing in response to the Dnfl Audit Report <bted September 18, 2003.    'Thank)Ou
          for tltt opponunitylo review audit findinp in advance and to provide commentary on the
          findings and recommendations currenuybeing considered. In the following s~tions I wiD
          provide a summary of the twO Onf! Audit Report'S Findings and ~ommendations,
          followed by the School response to each of the t-wo Findings and Recommendations. The
          fmal section will include alternative rcwmrncndations for )Outconsider.l.lion.
          SumnuyifFinlirf,Na 1 aniRea:nmnhtiaJ
          Finding No.1 of the Audit Report Slates that MTbt School Owged $13,405 in Unallow.l.ble
          Casu to the PCSP Gnnt,· and include$ the following Il!(01lllTlerilioons:

              •   1.1    The School should refund SI3,33 1 to ED.
              •   12     The School should develop and implement controls to provide Teuofl<lble
                         assurance that feden! funds art expentkd on items and services thai are
                         aIlow.lble under law.



          The Draft Audit Report stales, "1he School did IlO( have suffICient controls in place to
          provide reasonable assunnces that PCSP funds wtre expended on activities allowable IWder
          the law,- While the Public Cwter Schools Prognm is ckfmilelya progressive and positive
          source of charter school funding, the entire Pub[i,; Owter Schools Program seemed itself to
          bck suffICient controls over expenditwes, including a bck of specifIC regubtoryguidem
          regarding expenditures. Any instructions in regard to expenditures ~re scattered and
          anecdotal in nature. 'The recollUIlendation to develop and implement controls is an excellent
          one-so good that it should have been required as a formal pan of the application process
          and periodicaUy reviewed during the gr.lnt period. Is the school to bbmc: if it didn't re<:eive
          specif" guidance while panicipating in the grant? If a feden! program bcked these controls,
          is it fair for a small, ncwlyformed school to be penal.iz.ed for nOI having them?

          The Draft Audit ~pon StateS, ·School officials relied on their own interpretation of the
          charter school law when purcha.<;ing items and services with PCSP funds.» To an extent this
          is true, although the School administnlOr was in regular communication with the grant
          coordinator in regard to expenditum. The lack of specific.ity mentiollCd above in regard to
          what was aIlo"Woible seems to be a kq issue because it does leave decisions open to




                                                         1
inte'P~tion. In panicubr, this ~ms to apply to me inte'P~tation of the phnse
•ed~tiona1 materials and supplies.· The interp~Uon presented in this Finding seems 10
limit purclwes 10 those used directly in a classroom. The School's intelpretaUon included
any purdwes that supponed the mission of the school to provide a frec and appropmte
public ed.uaticm; in this intelpretaUon, filling administrative needs for supplies,
cOrrunUlllCaUons, student incentives, and other items is critical to the implementation of the
school. To OUT understanding, there is no reason why these expendilures aren't aIlo~
since ·chaner schools are allowed to pay for other initial oper.uional COStS nOl: met by other
sources provided that those COSIS are directly related to the purpose of the PeSP g.r.mt.,. to
pay for necessary items and services that would suppon the initial implementalion and
oper.ltions of the school while also allowing the school to become financially independent."

Likewise, the D/';\ft Audit Repon describes these as urullo'w.lble expenditures because they
a~ · items and services for ongoing school oper.uions- and "geocr.ll oper.ltional costS,- But
isn't it true that anyprognlll that is implemented bydefinilion becomes an ongoing cost!
The only questions a~ a) what constitutes implementation? and b) what constitutes an
ongoing cost? The parameters of the PCSP gnat defined this because it was a time·limited
gnIlt; it foDows that the gnIlt period itself must be the implementation period because the
gnnt purpose is implementation. The distinction ~n implementation expenditures and
ongoing expenditures is too indistinct 10 permit classifICation on tN.1 basis alone; for
enmplc, the purchase of computer equipment is clearly aDo'w.lble, ~I computers also
represenl an ongoing expense. It does not seem fair 10 penalize the School on the basis of
criteria that is indistinct and debatable,

SUll7lll7YifF~ No 2 ani Ra:umrnhtitn

Finding No. 2 of the Audit Repon stateS that ·The School Cannot Support ItS lJse of
S24,121 in PeSP Funds,· and includes the following ~mmendatioD$:

    •   2.1     The School should. provide documentation supporting the School expemkd
                S24,121 for cuniculwn devebpment or refund this amount 10 ED.
    • 22        The School shoukl devdop and implement policies and procedures for
                rnoUntaining necessary fmancw and personnel activity records documenting
                how the School expended PCSP funds.

SchtxJRespcnttoFinJ#r.No.    l.mlR~                 1.1.mLl.l

 The Or.Ut Audit Repon SlateS, -The School did not maintain time and effort reportS or
timesheets doc~nting the IOtai amoW\t of time emplo~s worked on PCSP gnnt
activities." 1bis criticism does not take into account the faCt that the employees in question
are professional educators who are p.id by salary. It is not standard pr.tctice at this School
or any other school we are aware of for any salaried employee to maintain time and effort
reports or timesheets. Professional wuca!ors are ~spons ible for the execution of various
school duties, including cl1l'riculwn development, under the supervision of me
Administntor; satisfactoryperfolTlW1Ce of these duties is a basis for continued emplo~nt.
In effect, the documentation called for in this audit represents an exception from standanl
practice in regard to salaried emplo)ttS; given the special nature of these req~mentS,




                                               2

SpecifIC guidelines should 1u.VC' been dissemiruted to aU schools pmicipating in the grant to
avoid confusion.

Unfortunately, no guidelines _~ provided within the pcsp for anyspeciflC documentation
of stipend expenditures. The School administrator coll1l1lWlicated with the grant
coordinatOrtO verifythe permissibility of stipend expenditures. No guidelines for
documenting these expenditwes we~ given at that time despite the fact thai such
expendirures v.-e~ giVC'n permission by the coordiru.tor and would clearly be occurring.

The stipend funds in question we~ used to fund the development of additional curricula and
to prevent overaU salary reductions during a serious budget shol1faU caused bya drop in
enrollment {this drop in enrollment was due to the adoption of a school unifonn policy that
inc~;ued course promotions and student achievement, but unfol1unatelycaused a significant
number of students 10 leave the school; school enrollment has almost doubled since the
discontinuation of the unifOlm polK:~. Otarter schools face signifICant facilities costs since
facilities a~ paid forout of the general fund; on top of this, a fluctuation of as few as ten
students can cause significant budget problems. The need for additional curricula was
rebted to the underl)ing ~asons for the budget shomaU. The School was originally
conceived as a college p~paratory school, but the natW"e of our student population has
required us to become an alternative school serving ai-risk studenu. lhis has meant changes
in policy to add~ss falling enrollment as weD as the development of appropriate ~um
materials. Issuing stipends for the development of additional curricub. was neceuaryto
meet the needs of our clientele as v.-d.l as to offset the reduction in salaries caused by the
enrollment drop.

&rording to the staled PCSP pwpose, ·charter schools are a1Io~ to pay for other initial
operational costs no! met byother ~ .• Ikcause of the drop in enrollment, expenses
during Ibis period exceeded State Equalization Assistance income by $45, 453.00'; sab.ries
for ~ntiaJ cwricular work could oot lu.ve been maintained withot.K supplementation by
grant stipends. This is documented in the Annual Finmcial Reporr and is cle1revidence
that grant monies we~ used to pay for "other iniW.I operational COSts no! met by other
"""'"."
Because of the ah5ence of clear and specific guidelines during the implementation of the
PCSP grant, the School cannot concur with either finding p~sen~ in the Draft Audit
kpon. While these fllldings are clearly the result of a conscientious and professional review
process, the lack of specific and consistent criteria for allowing or disallowing expenditures
during the grant implementation itself undennines the validity of any a pat /aclCJ finding.
The admissibility of these expendiru~s depends on an inteljl~tation of the general grant
guidelines ciled in the Draft Audit Repolt; given the absence of specific guidelines for
expendirures and the documentation of expenditures, the School made reasonable
judgmenu regarding the disposition of funds based on School needs.




                                               3

lk Schoo.! COIlL""W'$wi~RrcWlUl'ltn:iatiom 1.2 and 2.2    ~      the tkvclopment and
impIement:l.cioD. of ~run: oonrroIs an::!. financial ~Iy ~onls for sp«i.al5OVlU:5 of
fundin&. If grun: 3udiu hued on tbrse criteria, the dtvdopUJ,mt and imp1emalwion of
~nditure controls       fUlmcili activity ~ords should be ~Ilired as pan of tho:
appliawD. proo.:ns; mo \'Cr, grant recipitonts thauld tttCM! speciftc tl";liniq; in w u ~
upon succffifullyob .. grant funds.

111l' $CbooI does not co      with Rttoffill~mom 1.1 and 2.1. Requiring the sd100l to
refund 537,452.00 n::p cots a SignifICoU11 munetaty hardship _ h wukrmines ~ very
point of a~!ding PCS!' flWis in tht: fU'St pUce. Ikcause this IDOl'Iey has already been 5pellt
in support of the school any moneyrefundcd would be ukL-n dircctlyfrom the dmroom.
1hi.s &commendlt.ion c ruritutes a harsh pen31tythat runs dirtttlycoUDlu to the gnnt's
nated PUofPOSC to "i.ncre 'C the chances of ~ Scbool becoming fm:uu:Wly independent."

The School suggests an temativc ~~nd:lotion re~ing the ~ of tIlCSC fwxls. If the
fUidings are upneld, it      be much more fair and more ilppropriate to re<juLre the School
to :lpplythe amount of I   e funds to furure School expe:ndirurn tWo! would ntisfydle
guide!inl!s forexpendi:!  and record·kreping presented in the Om! Audit~. This
would utisfyanyco~~ ~ during the audit pm<:ess while asswior; tlLilt nudena .....:re
DO( unfairlypenaliud This 'M:ruld also provide the opporrunity lo forrnullte and apply a

controls and =rd-kttplng proct'U !orgrant expendirures.as ~omrneoded in the Draft
AudiI R¢port . If this ~~~ndation is ~pproved, the School wiD formuh.te the necesnry
policies ~nd procedures    'ftbin
                               one ~k of re<:eiving appm~ and will complere
expend.irure$ using these . .      O'Vl:r the next silt w twelve months.

In xlJicion, during the I P fundmg period a tobI of $24,079.69 wu spent on ~
the school' Although       gr.mt funds ioclude ~inIQ~ the community ~bou!: d ie :;chooI,~
grun fwxb \\'e~ not \l$e to co~r Utese nwming ~1lSa'. ~y anyol the funch
questioned in this Dnfl      't &pott ~ applied 10 these cleulY~'lI.ble ape.ndirures.
thcro:by ~ofying ;l.ttycot ms while usurWg that nude.atJ \\'en! nor unfaitlyp<'llalized?
CuJ.....
TIu.nk}Oll once 'lgain for oppottuniryto share the School's pen:peclive on the Dr:Jt
Audit Repon. Pbse don I hesiute ro conract me byphcme at (4S0) )%·54&) or byem;(il u
ptialmtr@sdsJxxJ.aogif    have any questions.




Patricia Dahnm
Admininr.uor. Sonoran         en School




                                                4

